Report No. DODIG-2013-018               November 8, 2012





    Deliveries and Payments for the Defense Advanced 

     GPS Receivers Met Contract Terms, but Property 

           Accountability Needed Improvements

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
APSR                          Accountable Property System of Record
ASA(ALT)                      Assistant Secretary of the Army (Acquisition, Logistics,
                                  and Technology)
C4I/IO/Space                  Command, Control, Communications, Computers,
                                  Intelligence, Information Operations, and Space
COPS                          Customer-Owned Property System
DAGR                          Defense Advanced Global Positioning System Receiver
DASN                          Deputy Assistant Secretary of the Navy
DCMA                          Defense Contract Management Agency
DFAS                          Defense Finance and Accounting Service
DPAP                          Defense Procurement and Acquisition Policy
EDA                           Electronic Document Access
FAR                           Federal Acquisition Regulation
GPS                           Global Positioning System
MOCAS                         Mechanization of Contract Administration Services
PBP                           Performance-Based Payment
PCO                           Procurement Contracting Officer
RCI                           Rockwell Collins, Inc.
USD(AT&L)                     Under Secretary of Defense for Acquisition, Technology,
                                  and Logistics
WAWF                          Wide Area Workflow
                                     INSPECTOR GENERAL
                                      DEPARTMENT OF DEFENSE
                                      4800 MARK CENTER DRIVE
                                   ALEXANDRIA, VIRGINIA 22350-1500




                                                                               November 8, 2012

MEMORANDUM FOR ASSISTANT SECRETARY OF THE ARMY (ACQUISTION,
                 LOGISTICS, AND TECHNOLOGY)
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                 MANAGEMENTAND COMPROLLER)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               NAVAL INSPECTOR GENERAL

SUBJECT: Deliveries and Payments for the Defense Advanced GPS Receivers Met Contract
         Terms, but Property Accountability Needed Improvements
         (RepmtNo. DODIG-2013-018)

We are providing this repmt for review and comment. We considered comments on a draft of this
report when preparing the final report. Rockwell Collins, Inc. (RCI), delivered Defense Advanced
Global Positioning System Receivers (DAGRs) in accordance with contract terms, and the Defense
Finance and Accounting Service correctly paid $27.1 million in DAGR contract transactions we
reviewed. However, personnel in the acquisition and logistics offices in each Military Department
did not properly account for 75,727 DAGRs, valued at $114.8 million, that were stored in an RCI
warehouse. Fmthermore, the procurement contracting officer, Air Force, Space and Missile Systems
Center, Global Positioning Systems Directorate, inappropriately authorized $102.4 million in
performance-based payments on the DAGR contract.

Comments from the Deputy Assistant Secretary of the Army (Acquisition Policy and Logistics), who
responded on behalf of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology); the Deputy Assistant Secretary of the Navy (C4I/IO/Space), who responded on behalf
of the Assistant Secretary of the Navy (Research, Development, and Acquisition); and the Chief of
Contracts, U.S. Air Force, Space and Missile Systems Center, Global Positioning Systems
Directorate, conformed to the requirements of DoD Directive 7650.3; therefore, additional
comments are not required. The Commander, Air Force Materiel Command, Logistics Readiness
Division, did not respond to the draft report. DoD Directive 7650.3 requires that all
recommendations be resolved promptly. We request comments from the Commander, Air Force
Materiel Command, Logistics Readiness Division, on Recommendations B.l, B.2.a, and B.2.b by
December 7, 2012.

Please provide comments that conform to the requirements of DoD Directive 7650.3. lfpossible,
send a pdf file containing your comments to aud-colu@dodig.mil. Copies of the management
comments must contain the actual signature of the authorizing official. We are unable to accept the
/Signed/ symbol in place of the actual signature. If you arrange to send classified comments
electronically, you must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703) 601-5945.



                                            d~~
                                             LorinT. Venable, CPA
                                             Acting Assistant Inspector General
                                             DoD Payments and Accounting Operations
Report No. DODIG-2013-018 (Project No. D2011-D000DC-0259.000)             November 8, 2012

               Results in Brief: Deliveries and Payments for
               the Defense Advanced GPS Receivers Met
               Contract Terms, but Property Accountability
               Needed Improvements
                                                        and reconcilable to the number produced.
What We Did                                             Furthermore, the procurement contracting
We determined whether deliveries and                    officer (PCO), Air Force, Space and Missile
payments for the Defense Advanced Global                Systems Center, Global Positioning Systems
Positioning System (GPS) Receiver (DAGR)                Directorate, inappropriately authorized
contract FA8807-09-C-0002 were made in                  $102.4 million in performance-based payments
accordance with contractual agreements and              (PBPs) on the DAGR contract. The contract did
applicable criteria.                                    not meet Federal Acquisition Regulation
                                                        requirements that would justify authorization of
                                                        PBPs. The PCO used performance-based
What We Found                                           financing on this contract because the previous
Rockwell Collins, Inc. (RCI), delivered DAGRs           contract contained PBPs and because of the
in accordance with contract terms and the               increased DoD emphasis on the use of this type
Defense Finance and Accounting Service                  of financing for fixed-price contracts. The use
(DFAS) correctly paid $27.1 million in DAGR             of PBPs cost the Military Departments $49,788
contract transactions we reviewed. As a result,         in processing fees and created an unnecessary
the Military Departments received the DAGRs             administrative burden.
needed to meet mission requirements.
                                                        What We Recommend
However, personnel in the acquisition and
logistics offices in each Military Department did       The Military Departments should: 

not properly account for 75,727 DAGRs, valued            record all DAGRs in Government property 

at $114.8 million, that were stored in an RCI               systems, and
warehouse. Those responsible for the DAGR                initiate a complete inventory reconciliation.
inventory inappropriately relied on the RCI             In addition, the Chief of Contracts,
inventory system. Additionally, a discrepancy           U.S. Air Force, Space and Missile Systems
of approximately 72,550 DAGRs existed                   Center, Global Positioning Systems Directorate,
between the number of DAGRs delivered by                should provide PCOs with training on when and
RCI and the total number of DAGRs reported              how to use PBPs.
by the Military Departments as deployed or
stored outside RCI’s customer-owned property            Management Comments and
system. This occurred because acquisition and           Our Response
logistics personnel did not maintain appropriate
                                                        Comments received were responsive to the
accountability records.
                                                        recommendations; however, the Commander,
                                                        Air Force Materiel Command, Logistics
Each Military Department must properly
                                                        Readiness Division, did not respond to
manage its DAGR inventory to provide optimal
                                                        Recommendations B.1, B.2.a, and B.2.b.
support to the warfighter. In addition, the DoD
                                                        Additional comments are requested. See the
accountability records must be easily retrievable
                                                        recommendations table on the back of this page.

                                                    i
Report No. DODIG-2013-018 (Project No. D2011-D000DC-0259.000)          November 8, 2012


Recommendations Table

              Management                        Recommendations       No Additional
                                               Requiring Comment   Comments Required
Assistant Secretary of the Army                                    B.1, B.2.a, B.2.b
(Acquisition, Logistics, and Technology)
in coordination with the Deputy Chief of
Staff of the Army (G4/Logistics)
Assistant Secretary of the Navy                                    B.1, B.2.a, B.2.b
(Research, Development and
Acquisition), in coordination with the
Deputy Assistant Secretary of the Navy
(C4I/IO/Space), Chief of Naval
Operations, and Commandant of the
Marine Corps Systems Command
Air Force Materiel Command, Logistics          B.1, B.2.a, B.2.b
Readiness Division, in coordination with
the Secretary of the Air Force, Installation
and Logistics Management
Chief of Contracts, U.S. Air Force, Space                          C
and Missile Systems Center, Global
Positioning Systems Directorate

Please provide comments by December 7, 2012.




                                                 ii
Table of Contents
Introduction	                                                                     1     


      Objective                                                                   1     

      Background on the DAGR Contract                                             1

      Review of Internal Controls                                                 2


Finding A. DAGRs Were Delivered and Paid for in Accordance With 

the Contract and Criteria                                                         3


      DAGRs Were Delivered and Accepted According to the Contract                 3

      DFAS Columbus Effectively Processed DAGR Contract Payments                  3

      Conclusion                                                                  4     


Finding B. Property Accountability and Inventory Records 

Need Improvement                                                                  5


      DAGRs Are Considered Accountable Property                                   5

      Military Departments Did Not Properly Account for DAGRs                     6

      Planned Management Corrective Actions on Accounting for DAGRs               8

      Recommendations, Management Comments, and Our Response                      8

      Management Comments Required                                               10 


Finding C. Use of Performance-Based Payments Was Inappropriate                   11 


      Processing of Performance-Based Payments                                   11 

      DAGR PBPs Were Inappropriate                                               11 

      PBPs Cost Military Departments Unnecessary Processing Fees                 13 

      Contracting Officer Took Action and Suspended the Use of PBPs for          14 

        DAGR Purchases 

      Recommendation, Management Comments, and Our Response                      14 


Appendixes

      A. 	Scope and Methodology                                                  16 

             Use of Computer-Processed Data                                      16 

      B. DAGR Delivery and Payment Process 	                                     18 

      C. Audit Sample of DAGR Contract Transactions 	                            19 


Management Comments

      Assistant Secretary of the Army (Acquisition, Logistics, and Technology)   20 

      Assistant Secretary of the Navy (Research, Development, and Acquisition)   22 

      U.S. Air Force, Space and Missile Systems Center, GPS Directorate          28 

Introduction
Objective
Our objective was to determine whether contract deliveries and payments for the Defense
Advanced Global Positioning System (GPS) Receiver (contract FA8807-09-C-0002)
were made in accordance with contractual agreements and applicable criteria.

Additionally, while addressing our audit objectives, we identified that property
accountability needed improvement and that there was inappropriate use of performance-
based payments. See Appendix A for a discussion of the scope and methodology related
to the objective.

Background on the DAGR Contract
The Defense Advanced GPS Receiver (DAGR) is a handheld, dual-frequency, GPS
device that provides guidance capabilities for vehicular, handheld, sensor, and gun laying
applications. The DAGR features an antispoofing module, simultaneous dual-frequency
signal reception, situational awareness, supports laser range finders, and a minimum of
14 hours continuous battery life. Rockwell Collins, Inc. (RCI), in Cedar Rapids, Iowa,
produced the DAGR.

The DoD Global Positioning Systems Directorate1 awarded RCI the DAGR
contract FA8807-09-C-0002 on March 10, 2009, with a contract ceiling amount of
$450 million. The DAGR contract also allows the Government to purchase more than
40 DAGR accessories. The RCI website offered numerous DAGR accessories for
purchase, including antennas, mounting brackets, cases, and cables. The DAGR contract
period of performance expires in FY 2016. Defense Contract Management Agency
(DCMA) Twin Cities administers the DAGR contract.

DoD Components purchased six lots of DAGRs and DAGR accessories, with different
prices for each lot, as of September 14, 2011. The total obligation amount on the DAGR
contract was approximately $333 million, of which $260 million was for DAGR devices.
Table 1 shows the DAGRs purchased by the Army, Navy, Air Force, Marine Corps,
Foreign Military Sales, and other activities, such as DoD Program Offices that field to
multiple Military Components.




1
 The Global Positioning Systems Directorate, a joint service effort directed by the Air Force and managed
at the Space and Missile Systems Center, Air Force Space Command, Los Angeles Air Force Base,
California, is the DoD acquisition office for developing and producing GPS satellites, ground systems, and
military user equipment.


                                                    1

           Table 1. DAGRs Purchased Under Contract FA8807-09-C-0002
          Purchaser              Number of DAGRs Purchased                     Value
    Army                                      146,113                      $211,931,169
    Navy                                        1,167                         1,941,727
    Air Force                                   3,556                         5,770,779
    Marine Corps                               10,540                        16,066,782
    Foreign Military Sales                      8,329                        13,537,853
    Other Activities*                           7,366                        10,973,788
      Total                                   177,071                      $260,222,098
   * Includes DAGRs shipped to Mine Resistant Ambush Protected Program Office for embedding on the
   vehicle for multiple Military Components.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to establish a management internal control
program to identify and promptly correct ineffective internal controls and establish
internal controls when warranted. We identified internal control weaknesses associated
with the accountability of DAGRs procured by the Military Departments and the contract
financing used by the Air Force.

Specifically, Military Department acquisition and logistics personnel did not maintain
appropriate accountability records that showed the total DAGRs that they owned.
Additionally, the procurement contracting officer, Air Force, Space and Missile Systems
Center, Global Positioning Systems Directorate, did not follow Federal Acquisition
Regulation (FAR) requirements regarding a 6-month time from order to delivery of items
that would justify authorization of performance-based payments. We will provide a copy
of the report to the senior officials responsible for internal controls in the Departments of
the Army, Navy, and Air Force and the Marine Corps.




                                               2

Finding A. DAGRs Were Delivered and Paid
for in Accordance With the Contract
and Criteria
Rockwell Collins, Inc. (RCI), delivered DAGRs in accordance with contract terms and
the Defense Finance and Accounting Service (DFAS) correctly paid $27.1 million in
DAGR contract transactions we reviewed. As a result, the Military Departments received
the DAGRs needed to meet mission requirements.

DAGRs Were Delivered and Accepted According
to the Contract
The process for delivering DAGRs was proper and in accordance with contract terms.
The DAGR contract required RCI to ship the DAGRs either directly to customers or to
the RCI customer-owned property storage (COPS) facility.2 The Military Department
program managers would provide RCI with specific instructions for shipments out of
COPS to military facilities.

The internal controls related to the DAGR delivery process from RCI to DoD was in
accordance with contract terms based on walkthroughs of the process. The RCI
manufacturing facility and COPS facility provided adequate evidence of delivery for a
selected Air Force shipment. For that shipment, RCI provided sufficient evidence of the
September 29, 2011, delivery of DAGRs to its COPS facility. For example, RCI
provided evidence of delivery of DAGR serial no. 498477 and provided the receiving
report and invoice that matched the COPS inventory record. DCMA properly accepted
the delivery and completed the receiving report for the shipment in Wide Area Workflow.

The delivery process met contract requirements. Further, there were no indications that
the equipment was misdirected or that the Military Components were concerned with the
delivery process.

DFAS Columbus Effectively Processed DAGR
Contract Payments
DFAS Columbus had an adequate payment process for $27.1 million in transactions we
reviewed. In a nonstatistical sample of 14 transactions, valued at $27.1 million,
DFAS Columbus effectively paid and maintained adequate supporting documentation.
The transactions consisted of 13 disbursements valued at $27,130,053 and one
recoupment of funds valued at $7,749. The 14 transactions contained evidence of a
receiving report, an invoice, and a payment voucher, which were the elements needed to
process a payment according to DoD Regulation 7000.14-R, “DoD Financial


2
  A COPS facility refers to a specific, controlled area used for the storage and control of property owned by
the contractors’ customers, including DoD, while in the possession of the contractor.


                                                      3

Management Regulation,” volume 10, chapter 8, section 0804. Additionally, DCMA
properly approved the transactions. See Appendix B for a flowchart of the delivery and
payment process. See Appendix C for a list of the 14 transactions selected for review.

Conclusion
RCI delivered DAGRs in accordance with the requirements of the DAGR contract.
DCMA personnel inspected and accepted the DAGRs and DFAS Columbus paid the
invoices for the items delivered in accordance with the contract. As a result, the Military
Departments received the DAGRs needed to meet mission requirements.




                                             4

Finding B. Property Accountability and
Inventory Records Need Improvement
Personnel in the acquisition and logistics offices in each Military Department did not
properly account for 75,727 DAGRs, valued at $114.8 million, that were stored in an RCI
warehouse. This occurred because the personnel responsible for the DAGR inventory
inappropriately relied on the RCI inventory system and did not enter DAGR
accountability information in DoD property accountability records, even though the
DAGRs belonged to DoD and DoD policy required the Military Departments to account
for them on their records.

Additionally, a discrepancy of approximately 72,550 DAGRs existed between the
number of DAGRs delivered by RCI and the total number of DAGRs reported by the
Army, Navy, Air Force, and Marine Corps as deployed or stored outside COPS. This
discrepancy occurred because acquisition and logistics personnel did not maintain
appropriate accountability records that showed the total DAGRs that they owned.

Each Military Department must properly manage its DAGR inventory to provide optimal
support to the warfighter. In addition, the DoD accountability records must be easily
retrievable and reconcilable to the number produced. During the audit, the Military
Departments were working to determine the best way to begin recording and accounting
for DAGRs inside and outside COPS.

DAGRs Are Considered Accountable Property
DAGRs are pilferable items that should be controlled, monitored, and maintained in a
property accountability system. The Federal Logistics Information System lists the
DAGR with a controlled inventory item code of “Y.” The “Y” designation indicates the
                                     item is communications or electronics equipment
    DoD defines pilferable items     or contains parts that DoD considers pilferable.
    as materials having a ready      DoD defines pilferable items as materials having a
       resale value or civilian      ready resale value or civilian application that
   application that makes the item   makes the item especially subject to theft. DAGRs
     especially subject to theft.    purchased in September 2011 cost DoD
                                     $1,757 each.

Policies and procedures for property accountability in DoD are governed by
DoD Instruction 5000.64, “Accountability and Management of DoD Equipment and
Other Accountable Property,” May 19, 2011. The Instruction requires pilferable items to
have accountable property records established to protect against unauthorized use,
disclosure, or loss or when otherwise required by law, policy, regulation, or agency
direction. Furthermore, the Instruction states that accountability of property is to be
established upon receipt, delivery, or acceptance and maintained within an Accountable
Property System of Record (APSR).




                                           5

The Instruction defines “accountable property” as “property that meets accountability
requirements” and is “to be recorded in an APSR” and defines an APSR as “the
Government system used to control and manage accountable property records; a subset of
existing organizational processes related to the life-cycle management of property; the
system that is integrated with the core financial system.” Examples of DoD APSR
systems include:

      Army Property Book Unit Supply Enhanced,
      Navy Special Warfare Automated Logistics Information System,
      Air Force Equipment Management System, and
      Marine Corps Stock Control System.

Military Departments Did Not Properly Account
for DAGRs
The Military Departments did not properly account for 75,727 DAGRs, valued at
$114.8 million, stored in the RCI COPS warehouse. In December 2011, RCI reported
that it had 75,727 DAGRs stored for the Military Departments. Table 2 identifies the
breakdown by Military Department.

                              Table 2. DAGRS in COPS
                  Military Department             Number of DAGRs
             Army                                        71,160
             Navy                                           458
             Air Force                                    2,766
             Marine Corps                                 1,343
               Total                                     75,727

Our inquiries to the Military Departments about the number of DAGRs stored in COPS,
and our review of APSRs showed that personnel in the Military Department acquisition
                                                   and logistics offices did not record
       Personnel in the Military Department        any of the 75,727 DAGRs stored in
      acquisition and logistics offices did not    COPS in the Military Departments’
    record any of the 75,727 DAGRs stored in       property accountability systems.
        COPS in the Military Departments’          During the audit, the Navy and
         property accountability systems.          Marine Corps removed all of the
DAGRs from COPS. However, the process for recording Navy and Marine Corps
DAGRs was not corrected for future DAGR shipments. The DAGRs will not be entered
into an ASPR when they are shipped to COPS. The Army and Air Force were
developing plans for accounting and recording DAGRs stored in COPS.

DoD Inappropriately Relied on RCI Property System
The Military Department officials inappropriately relied on the RCI COPS inventory
system to track DAGR accountability information. The Military Department personnel


                                           6

indicated they did not record the DAGRs stored in COPS in their APSR because they had
not taken physical custody of the property. Personnel from the Army Program Executive
Office stated that the RCI Accountable Property System met the intent of
DoD Instruction 5000.64.

However, the Instruction states that the property (DAGRs) became DoD property once
 The Military Departments were              DCMA representatives accepted the DAGRs.
 responsible for DAGR accountability        Therefore, the Military Departments were
 upon DCMA acceptance.                      responsible for DAGR accountability upon
                                            DCMA acceptance.

Personnel in the Acquisition Resources and Analysis Directorate, Under Secretary of
Defense for Acquisition, Technology, and Logistics (USD[AT&L]), confirmed that DoD
must not use the contractor’s property system in place of a DoD APSR. Personnel further
stated that the DoD APSR must be separate from contractor inventories so that checks
and balances could be performed as necessary.

The Military Departments’ failure to record DAGRs in the appropriate APSR limited
DoD’s ability to effectively and efficiently manage inventory and provide optimal
support to the warfighter because the APSRs would not show the DAGRs stored in COPS
as readily available. The property accountability officers for each Military Department
should comply with DoD Instruction 5000.64 and record and track DAGRs in the
appropriate APSR.

Discrepancy Between DAGRs Delivered and DAGRs Reported as
Stored or Deployed Outside COPS
A discrepancy existed between the total number of DAGRs delivered by RCI3 for the
Military Departments and the total number of DAGRs each Military Department reported
as being outside COPS (either deployed or stored in a DoD depot or in a base supply
                                      system). Specifically, Military Department
         Military Department          accountability information did not reconcile to
    accountability information did    shipment records for 72,550 DAGRs outside
       not reconcile to shipment      COPS. This large discrepancy occurred because
      records for 72,550 DAGRs        acquisition and logistics personnel in each
            outside COPS.             Military Department did not maintain appropriate
                                      accountability records.

Army, Navy, Air Force, and Marine Corps acquisition and logistics personnel provided
information on the number of DAGRs they believed were outside COPS. Table 3
provides information on the total DAGRs that RCI produced, those reported as accounted
for by the Military Departments as outside COPs, and the difference.



3
  These DAGRs included those produced under contract FA8807-09-C-0002 and its predecessor, 

contract F04701-02-C-0011. We combined the production totals because they were not easily separable in

the records. 



                                                   7

Table 3. Discrepancies in DAGRs Delivered and Reported, by Military Department
   DAGRs                    Army     Navy      Air    Marine       Total
                                              Force   Corps
   Delivered by RCI        371,771   7,994   10,426 39,829        430,020
   Stored in COPS           71,160     458     2,766    1,343       75,727
   Reported by Military 265,991        884       841 14,027       281,743
   Departments*
   Discrepancy             34,620    6,652    6,819   24,459       72,550
  *We did not validate the Military Department representation of DAGRs reported.

The discrepancies, and the lack of information about the discrepancies, indicated that the
Military Departments were unable to locate or track all the DAGRs that RCI delivered
and that DoD deployed or stored outside the RCI COPS. The inability of each Military
Department to easily track and locate the DAGRs, which DoD categorizes as a pilferable
item, limited DoD’s ability to control and use those resources to the fullest extent when
needed. The property accountability officers for each Military Department should initiate
a comprehensive review and reconciliation to locate all DAGRs and, if necessary,
complete the appropriate loss of property forms.

Planned Management Corrective Actions on Accounting
for DAGRs
During the audit, the Military Departments were working to determine the best way to
begin recording and accounting for DAGRs inside and outside COPS. The Military
Departments had not fully developed the specific actions they would need to take to
account for all DAGRs but were in the process of developing them.

Recommendations, Management Comments, and
Our Response
Redirected Recommendations
As a result of comments from the Deputy Assistant Secretary of the Navy (DASN),
Command, Control, Communications, Computers, Intelligence, Information Operations,
and Space (C4I/IO/Space), we redirected draft Recommendations B.1, B.2.a, and B.2.b to
include coordination with the Chief of Naval Operations and Commandant of the Marine
Corps Systems Command.

B. We recommend that the Assistant Secretary of the Army (Acquisition, Logistics,
and Technology), in coordination with the Deputy Chief of Staff of the Army,
(G4/Logistics); Assistant Secretary of the Navy (Research, Development and
Acquisition), in coordination with the Deputy Assistant Secretary of the Navy
(C4I/IO/Space), Chief of Naval Operations, and Commandant of the Marine Corps
Systems Command; and Commander, Air Force Materiel Command, Logistics
Readiness Division, in coordination with the Secretary of the Air Force, Installation
and Logistics Management:


                                                 8

       1. Record all Defense Advanced Global Positioning System Receivers
delivered to the U.S. Government in the appropriate Government accountable
property system of record.

       2. Initiate a complete inventory reconciliation to:

           a.	 Locate and inventory Defense Advanced Global Positioning System
               Receivers unaccounted for, and

           b.	 Complete appropriate loss of property forms if necessary.

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments
The Deputy Assistant Secretary of the Army (Acquisition Policy and Logistics)
responded on behalf of the Assistant Secretary of the Army (Acquisition, Logistics, and
Technology [ASA(ALT)]). He agreed with the recommendations and stated that the
ASA(ALT) directed the U.S. Army Product Director, Position Navigation and Timing, to
move all remaining contractor-owned property supply system materiel into the Logistics
Modernization Program and store it in a Defense Logistics Agency Depot. Also, he
stated that the Deputy Chief of Staff of the Army (G4/Logistics) would reconcile
100 percent of the Army’s DAGRs.

Assistant Secretary of the Navy (Research, Development, and
Acquisition) Comments
DASN (C4I/IO/Space) responded on behalf of the Assistant Secretary of the Navy
(Research, Development, and Acquisition). He agreed with the recommendations and
stated that the Navy Personal Property Policy and Procedures provides guidance to track
pilferable items in an accountable property records system. He stated the Navy would
perform a complete inventory by June 30, 2013. Also, he stated that the Navy would
ensure that all Navy DAGRs were accounted for in accountable property system of
record by September 30, 2013.

The Director of the Marine Corps Staff, responding for the Commandant of the Marine
Corps, agreed with the recommendations. He stated that the majority of DAGRs were
embedded in other weapon systems and would not be visible as stand-alone items within
the current accountable property systems of record. He stated that improved visibility of
embedded DAGRs would occur during FY 2014.

Our Response
The comments from the Deputy Assistant Secretary of the Army (Acquisition Policy and
Logistics) and DASN (C4I/IO/Space) were responsive, and no additional comments were
required.




                                            9

Management Comments Required
The Commander, Air Force Materiel Command, Logistics Readiness Division, did not
comment on a draft of this report. We request that the Commander, Air Force Materiel
Command, Logistics Readiness Division, provide comments on the final report by
December 7, 2012.




                                          10

Finding C. Use of Performance-Based
Payments Was Inappropriate
The procurement contracting officer (PCO), Air Force, Space and Missile Systems
Center, Global Positioning Systems Directorate, inappropriately authorized
$102.4 million in performance-based payments (PBPs) on the DAGR contract. The
contract did not meet FAR requirements regarding a 6-month time from order to delivery
of items that would justify authorization of PBPs.

The PCO used performance-based financing on this contract because the previous
contract contained PBPs and because of the increased DoD emphasis on the use of this
type of financing for fixed-price contracts. However, the use of PBPs on the DAGR
contract created:

   	 an unnecessary cost as the Military Departments paid an estimated $49,788 in
      unnecessary accounting processing fees, and

   	 an administrative burden for DCMA and DFAS in their accounting and 

      reconciliation of 1,800 payments and related transactions. 


During the audit, Air Force procurement office personnel took action to discontinue the
use of PBPs on the contract.

Processing of Performance-Based Payments
The DAGR contract was a fixed-priced contract that included 15 PBPs, valued at
$102.4 million, that allowed financing to the contractor for goods or services provided.
Although the contract contained a ceiling price of $450 million, not all of the contract
items received contract financing payments. DFAS Columbus processed the PBPs
according to the requirements in the contract that called for achievement of specific
events or accomplishments as defined and valued in advance by the parties to the
contract, before the acceptance of goods or services.

As part of its accounting process, DFAS Columbus reversed the PBPs once RCI
delivered the DAGRS to allow for the full final payment on each contract line item.
DFAS referred to this reversal transaction as a recoupment, or liquidation, of the PBP.

DAGR PBPs Were Inappropriate
The use of performance-based payments on the DAGR contract was inappropriate.
FAR section 32, paragraph 104 (d), states: “the contracting officer may provide contract
financing in the form of PBPs if the contractor will not be able to bill for the first delivery
of products for a substantial time after work must begin . . . (6 months or more).” RCI
did not require more than 6 months for the delivery of DAGRs from the time of the PCO


                                              11

                                            order. As a result, the Air Force contracting
       As a result, the Air Force
                                            office inappropriately authorized 15 PBPs,
   contracting office inappropriately
                                            with a cumulative value of $102.4 million.
      authorized 15 PBPs, with a
  cumulative value of $102.4 million.
                                          The use of PBPs was not necessary because
                                          the contractor had very little risk and did not
need the early financing. We discussed this with personnel in Defense Procurement and
Acquisition Policy (DPAP), who stated that the PCO’s use of performance-based
payments on this type of contract was inappropriate. DPAP personnel reviewed the
delivery schedule for DAGRs and stated that they believed the short turnaround time for
delivery of the DAGRs in the contract involved little risk and did not justify any type of
financing.

RCI delivered the first DAGRs ordered on the contract within 6 days of the contract
modification date. For example, DFAS Columbus paid for the DAGRs ordered on
contract line item 0100AA on the days as shown in Table 4.

        Table 4. Delivery and Payment Schedule for First DAGRs Purchased
        Date         Days                          Description
   March 25, 2009       1    DoD ordered DAGRs from RCI
   March 31, 2009       6    RCI delivered contract line item 0100AA and
                             requested payment
   April 3, 2009        9    RCI requested a PBP for DAGRs ordered, including
                             contract line item 0100AA
   April 29, 2009      35    DFAS Columbus processed the PBP to RCI
   May 1, 2009         37    DFAS Columbus paid for the first shipment of DAGRs

According to the FAR guidance, RCI should not have received contract financing. The
delivery of DAGRs occurred in only 6 days, well less than 6 months after DoD ordered
                                    them. Furthermore, the contract required the
       According to the FAR         contractor to deliver DAGRs within 6 months of the
   guidance, RCI should not have    exercised option, with all DAGRs received within
    received contract financing.    18 months. This clearly did not comply with the
                                    requirement of the FAR, which intended the use of
financing only when items required substantial leadtimes of 6 months or more.

Reasons Why the Air Force Used PBPs
The Air Force, Space and Missile Systems Center, Global Positioning Systems
Directorate, contracting office personnel stated they used performance-based financing
on this contract because the previous contract contained PBPs and because of the
increased DoD emphasis on the use of this type of financing for fixed-price contracts.
The contracting office personnel in the Directorate stated that an earlier contract the
Air Force used to procure DAGRs employed the use of PBPs and they believed continued
use of this type of financing on the follow-on contract was justified. They also stated that

                                            12

they authorized PBPs based on USD(AT&L) guidance that emphasized the increased use
of PBPs.

The USD(AT&L) guidance referred to by the contracting personnel included a
memorandum issued in November 2000, which stated: “the Department must take
maximum advantage of the benefits of PBPs as the preferred means of providing contract
financing under fixed-price contracts by making this form of payment the primary and
most commonly used form of contract financing.” Furthermore, the memorandum stated
that by FY 2005, PBPs should be the most prevalent form of financing used in fixed-price
contracts.

Additionally, USD(AT&L) issued the “User’s Guide to Performance Based Payments,”
November 30, 2001, with the forward stating: “I encourage program managers,
contracting officers, and industry to use this guide to change the existing paradigm and
use PBP as their preferred fixed-price contract financing method.”

PBPs Cost Military Departments Unnecessary
Processing Fees
The Military Departments paid $49,788 in unnecessary account processing fees that
                                       DFAS Columbus charged to process PBPs to
    The Military Departments paid      the contractor. DFAS Columbus processed
       $49,788 in unnecessary          1,800 transactions at an approximate cost of
     accounting processing fees.       $27.66 per transaction.

Additionally, the use of PBPs on this contract created an unnecessary administrative
burden for DCMA and DFAS Columbus related to the accounting and reconciliation of
payments for the contract. The PCO’s use of PBPs forced DFAS Columbus to monitor
the recoupment of the PBPs each time the DAGRS were delivered, a time- and resource-
consuming task.

Improvements to PBP Guidance
The DPAP staff recognized that many contracting and acquisition professionals were not
familiar with the steps necessary to create an effective PBP arrangement. DPAP staff
stated that unlike progress payments, which were incorporated simply by including the
appropriate clause in the contract, PBPs required considerable thought and effort by the
DoD contracting officer and the contractor to construct the detailed PBP arrangements.

As a result, DPAP officials developed a “Performance Based Payments Guide” to assist
users based on lessons learned over the past 16 years of using PBPs. The guide is in draft
and covers numerous topics, including contract financing and PBP basics and
determining when PBPs are practical. DPAP personnel stated they planned to finalize the
Guide after a proposed Defense Federal Acquisition Regulation Supplement Case
(2011-D045) becomes final.




                                           13

The Chief of Contracts, U.S. Air Force, Space and Missile Systems Center, Global
Positioning Systems Directorate, should provide contracting personnel with training on
when and how to use performance-based payments before awarding any additional
contracts with performance-based payment financing.

Contracting Officer Took Action and Suspended the Use
of PBPs for DAGR Purchases
As a result of the audit team’s inquiry into the use of PBPs, the Air Force contracting
officer took action to discontinue their use on the DAGR contract where deliveries would
be made within 6 months or less. Specifically, the Air Force contracting officer reached
an agreement with RCI to suspend the use of PBPs for DAGR purchases.

The contracting officer stated that because of the short leadtime, PBPs were not needed
and suspension was necessary. Additionally, the contracting officer stated he was
unaware of the impact to DFAS in making the PBP payments until the audit team
informed him of the cost and administrative burden.

Recommendation, Management Comments, and
Our Response
Redirected Recommendation
As a result of management comments, we redirected Recommendation C to the Chief of
Contracts, U.S. Air Force, Space and Missile Systems Center, Global Positioning
Systems Directorate.

C. We recommend that the Chief of Contracts, U.S. Air Force, Space and Missile
Systems Center, Global Positioning Systems Directorate, provide contracting
personnel with training on when and how to use performance-based payments
before awarding any additional contracts allowing performance-based payment
financing.

Chief of Contracts, U.S. Air Force, Space and Missile Systems
Center, Global Positioning Systems Directorate, Comments
The Chief of Contracts, U.S. Air Force, Space and Missile Systems Center, Global
Positioning Systems Directorate, agreed with the recommendation even though he took
issue with “the calculation of the ‘unnecessary accounting processing fees’ figure of
$49,788” because some account processing fees were required for the appropriate
payments and, he was not sure how the auditors arrived at the number of transactions.
However, he stated that training would be provided to contracting personnel on how and
when to use performance-based payment financing. Further, he stated the training would
be provided by October 31, 2012.




                                           14

Our Response
The comments from the Chief of Contracts, U.S. Air Force, Space and Missile Systems
Center, Global Positioning Systems Directorate, were responsive, and no additional
comments were required. Regarding the Chief of Contracts comments on the processing
fees, the audit team excluded the invoice payment transactions when calculating the
unnecessary performance-based payments and recoupments. On November 5, 2012, the
Chief of Contracts informed us that he provided performance-based payment finance
training to contracting personnel on October 23, 2012.




                                        15

Appendix A. Scope and Methodology
We conducted this performance audit from August 2011 through August 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To determine whether contract deliveries for the Defense Advanced Global Positioning
System Receiver (DAGR) (contract FA8807-09-C-0002) were made in accordance with
contractual agreements and applicable criteria, we reviewed the internal controls related
to the DAGR delivery process from RCI to DoD. Specifically, we performed
walkthroughs of the delivery process. We reviewed the evidence of a DAGR delivery to
the Air Force. We interviewed Military Component personnel concerning the delivery
process.

We selected a nonstatistical sample of 14 transactions, valued at $27.1 million, to ensure
that DFAS Columbus made payments in accordance with contractual agreements and
applicable criteria. Specifically, we reviewed the transactions to ensure that
DFAS Columbus maintained adequate supporting documentation, which included
reviewing the contract file, invoices, and receiving reports.

We conducted interviews with RCI, DCMA, and DFAS personnel to obtain details on the
DAGR production, delivery, and payment process. We also gathered and reviewed RCI
property storage records and compared those to the Military Department APSR records to
identify potentially unaccounted for DAGRs.

We conducted interviews with the Air Force, Space and Missile Systems Center, Global
Positioning Systems Directorate, contracting personnel to obtain details on the awarding
of the DAGR contract and the justification for the type of financing used. We also
coordinated with DPAP, DCMA, and DFAS personnel regarding the impact and use of
PBPs.

Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Data Access (EDA) system,
Wide Area Workflow (WAWF), and the Mechanization of Contract Administration
Services (MOCAS). The EDA system stores contracts, contract orders, and contract
modifications. The WAWF system is a secure web-based system for electronic
submission and processing of receiving reports and invoices. MOCAS collects
transaction data related to payments and recoupments on the contract. We queried
MOCAS to determine the amount of transactions that occurred on the DAGR contract.

We compared the contracts, orders, and modifications obtained from the EDA system to
the contracts, orders, and modifications in the procurement contracting officer’s contract

                                            16

files and verified that the documentation we obtained from the EDA system was accurate.
We used the information from WAWF to determine whether the transactions in the
MOCAS queries were complete and accurate and should have been processed. As a
result of our analysis, we determined that the data within the EDA system, WAWF
system, and MOCAS were sufficiently reliable for our findings and conclusions.

Prior Coverage
No prior coverage has been conducted on DAGRs during the last 5 years.




                                          17

Appendix B. DAGR Delivery and
Payment Process


                                       RCI manufactures the DAGR.


                                  RCI sends receiving report and invoice
                                   electronically in WAWF to DCMA.



                DCMA reviews and accepts the receiving
              report for payment. At this point, the DAGR             DFAS Columbus pays RCI submitted
                       is considered DoD property.                         invoice using MOCAS.




                                       RCI ships the DAGRs to the location
                                    identified in the Contract Line Item Number
                                                   Ship To address.


               Ship To: COPS                                      Ship To: Customer address as noted in
                                                                      Contract Ship To information.

    RCI places DAGRs into COPS until the                                   End of process.
     Military Department issues shipping
                 directives.


      Military Departments issue shipping
  directives to RCI. RCI ships DAGRs to the
          designated Military facility.


    RCI consolidates DAGR accessories and
     ships in accordance with the Military
       Departments shipping directive.


               End of process.


DAGR = Defense Advanced GPS Receiver              DCMA = Defense Contract Management Agency
DFAS = Defense Finance and Accounting Service     MOCAS = Mechanization of Contract
RCI = Rockwell Collins, Inc.                               Administration Services




                                                 18

Appendix C. Audit Sample of DAGR
Contract Transactions
We nonstatistically selected and reviewed 14 DAGR contract transactions that DFAS
Columbus processed. The transactions consisted of 13 payments valued at $27.1 million
and one recoupment of funds valued at $7,749. The DAGR contract transactions
included PBPs, invoice payments on contract line item numbers, collections to recoup
PBPs, and accounting adjustments. Table C shows the nonstatistical sample of DAGR
contract transactions reviewed.

             Table C. Audit Sample of DAGR Contract Transactions
 #    Shipment                 Transaction               Net                  Absolute
       Number                  Description             Amount                 Amount
1     PBPA009 PBP for DAGRs                             $981,642               $981,642
2     PBPA009 PBP for DAGRs                           12,111,154              12,111,154
3     PBPA009 PBP for DAGRs                              308,795                 308,795
4     PBPA009 PBP for DAGRs                            1,668,658               1,668,658
5     PBPA009 PBP for DAGRs                            1,028,313               1,028,313
6     PBPA009 PBP for DAGRs                              233,659                 233,659
7     PBPA009 PBP for DAGRs                            8,531,042               8,531,042
8     PBPA009 PBP for DAGRs                            1,516,364               1,516,364
9     CRC2213 Shipment of Army RA-1 Antenna              457,520                 457,520
10    SER9064 DAGR Repairs and Scrapping                 173,847                 173,847
11    CRC1433 Recoupment of PBP for the shipment of       (7,749)                  7,749
                  U.S. Air Force Molle Flip Case
12    CRC1433 Shipment of U.S. Air Force Molle Flip       49,712                   49,712
                  Case
13    REF1658 Repayment of DAGR PBP Recoupment            23,715                  23,715
14    CRC2427 Shipment of RA-1 Cable                      45,632                  45,632
       Absolute Value Total                                                  $27,137,802
CLIN = Contract Line Item Number
DAGR = Defense Advanced GPS Receiver
PBP = Performance-Based Payment

The transactions contained evidence of a receiving report, invoice, and payment voucher,
which were the elements needed to process a payment. DFAS recouped the $7,749 for
the flip case in accordance with the requirements contained in the contract.




                                           19

Assistant Secretary of the Army (Acquisition, Logistics, and
Technology) Comments


                                    DEPARTMENT OF THE ARMY
                              OFFICE OF THE "SSISTANT SECRETARY OF THE ARMY
                                  ACQUISITION LOGISTICS AND TECHNOLOGY
                                             103 ARMY PENTAGON
                                         WASHINGTON DC 20 310-0103




                                                                                  SEP 26 201.!.
      SAAL-ZL


      MEMORANDUM FOR U.S. ARMY AUDIT AGENCY, INSPECTOR GENERAL,
      DEPARTMENT OF DEFENSE, 4800 MARK CENTER DRIVE, ALEXANDRIA,
      VIRGINIA 22350-1500.


      SUBJECT: Deliveries and Payments for the Defense Advanced G PS Receivers Met
      Contract Terms, but Property Accountability Needed Improvements (Project No. D2011-
      DOOODC-0259.000)


      1. Deputy Assistant Secretary of the Army Acquisition, Log istics and Technology has
      reviewed the IG draft report and concurs with IG recommendations found at the
      enclosure.

      2. The    int of contact is




       Encl
                                                J~7rft{t?~
                                               /fWimpy D. Pybus
                                        Deputy Assista nt Secretary of the Army
                                          (Acquisition Policy and Logistics)




                                                                 20
     ASSISTANT Secretary of the Army (Acquisition, Logistics, and Technology)
   Deliveries and Payments for the Defense Advanced GPS Receivers Met Contract
               Terms, but Property Accountability Needed Improvements,
                        (Project No. 02011 -DOOODC-0259.000)



Recommendation 81:
Record all Defense Advanced Global Positioning System Receivers delivered to the
U.S. Government in the appropriate Government accountable property system of
record.

Action Taken:
ASA ALT has dtrected the U.S. Army Product Director, Positton Navigation and Timing
to move all remaining contractor owned property supply system materiel into the
Logistics Modernization Program and store tn a Defense Logistics Agency Depot.

Recommendation B2a&b:
Initiate a complete inventory reconciliation to:

  a. Locate and inventory Defense Advanced Global Positioning Systems Receivers
unaccounted for, and

   b. Complete appropriate loss of property forms if necessary

Action Taken:
ASA ALT has initiated a 100% Army wide data call (by the DCS G4) to reconcile the
DAGRs Army Wide.




                                                                                    Snc. .\




                                                     21
Assistant Secretary of the Navy (Research, Development,
and Acquisition) Comments


                                   DEPARTMENT OF THE NAVY
                                        0FFtcE OF THE AsSISTANT SECRETARY
                                     {RESEARCH, DEVELOPMENT AND ACOUISillON)
                                               1000 NAVY PENTAGON
                                           W ASHINGTON, DC 20350·1000




                                                                                    01 October 20 12

      MEMORANDUM FOR DEPARTMENT OF DEFENSE INSPECTOR GENERAL

      SUBJECT: Department of Navy Response lo DoDlG D2011 -DOOODC-0259.000

            In response to the DoD draft report "'Deliveries and Payments for the Defense
      Advanced GPS Receivers Met Contract Terms, But Property Accountahi lity Neeueu
      Improvements" dated 28 August 2012, the Navy' s input is provided in attachment land the
      Marine Corps input is provided in attachment 2.

             My point of contact for this matter is                            He can be reached by
      telephone at • • • • • • • • • • • •




                                                           ssistant Secretary of the Navy
                                                      Command, Control, Communications,
                                                      Computers, Intelligence, Information
                                                      Operations and Space



      ATTACHMENTS:
      As stated




                                                                        22
                  DODIG DRAFT R EPORT DATED 28 AUG 2012
                       DODIG 02011 -DOOODC-0259.000

             " DEUVE RIES A D PA YME TS FOR THE DEFE SE
            AOVA CEO CPS R ECE IV ERS M ET C O TRAC r T ERi\IS,
                B T P ROPERTY CCO 1 TABILlTY NEEDED
                                  IMPROVEME~TS"

        US . A VY C OMMENTS TO TilE DODIG R ECOMMENDA TIO S

R ECOMMEND TIONS:
B. We recommend that the Assistant Secretary of the Army (Acquisition. Technology.
and Logistics). in coordination with the Deputy Chief of Staff of the Army. 04/Logistics:
Assistant Secretary of the Navy (Research. Development and Acquisition). in
coordination with the Deputy Assistant Secretary of the Navy. C41/Spacc: Commander
Air Force Materiel Comm and. Logistics Readiness Division , in coordination wi th the
Secretary of the Air Force. Installation and Logistics Management; and the Commandant
of the Marin e Corps Systems Command. in coordination with the Depu ty Comm andant.
Marine Corps In sta llations and Logistics:

 S RESPONSE: Department of the Navy coordination does not include the Chief of
Naval Operations. Recommend the following:

B. We recommend that the Assistant Secretary of the Army (Acquisition. Technology.
and Logistics). in coordination with the Deputy Chief of Staff of the A rmy. 04/Logi stics:
Comm ander Air force Materiel Command, Logistics Readiness Division, in coordination
with the Secretary of the Air Force. Installation and Logistics Management: and the
Assistant Secretary of the Navy (Research. Development and Acqu isition). in
coordination with the Deputy Assistant Secretary of the Navy (C41/10/Space). Chief of
Naval Operati ons. and Commandant of the Marine Corps Systems Command:



R ECOM M E DATION B.l.: Record all Defense Advanced Global Positioning System
Receivers (DAGR) deli vered to the U.S. Govemment in the appropriate Govemment
accountable property system of record (APSR).

  S R ESPO NSE: Concur. SECNA VlNST 7320. 1OA. "Department of the Navy (DoN)
Personal Property Policy and Procedures" provides the gui dance necessa ry to track
pi lfc rablc items in an appropriate accountable property records system. The Navy will
en sure that all USN DAGRs are accounted for in APSR by 4th QTR FY 13.


                                                                             AITACHM ENTl




                                                          23
R ECOMMENDATION B.2.a.:
2. Initiate a complete inventory reconci liation to:
       a. Locate and inventory Defense Advanced Global Positioning System Receivers
unaccounted for. and

 S RESPONS E: Concur. The Navy will coordinate an in ventory and ensure that all
DAGRs are accounted for. A complete in ventory will be finalized by 3'd QTR FY 13

RECOMME 'DATION B.2.b.:
b. Compl ete appropriate loss of property forms if necessary.


 S RESPONSE: Concur.




                                                                        AITACHM ENTl




                                                         24
                            DEPARTMENT OF THE NAVY
                       HEADQUARTeRS UNITED STATES MARINE CORPS
                             3000 MARINE CORPS PENTAGON
                              WASHINGTON. DC 20350-3000          IN REPLVRF.fF_R: TO:
                                                                 7500

                                                                 DHf~tJ Z01Z
From:   Commandant of the Marine Corps
To :    Assistant Secretary of the Navy (Research, Development
        and Acquisition}

Subj:   DEPARTMENT OF DEFENSE ·OFFICE OF INSPECTOR GENERAL
        DRAFT AUDIT REPORT D2011 - DOODDC- 0259.000, DELIVERIES
        AND PAYMENTS FOR THE DEFENSE ADVANCED GPS RECEIVERS
        MET CONTRACT TERMS, BUT PROPERTY ACCOUNTABILITY NEEDED
        IMPROVEMENTS, DATED AUGUST 28, 2012

Ref:    (a)   DODIG   Memo dtd August      28,   2012

Encl:   (1) Mari ne Corps Responses

1. Official responses required by the reference are provided at
the enclosure.

2.  The Marine Corps appreciates the opportunity to respond to
the report .




Copy to:
NAVINSGEN (Nll)
DC, I&L
CMDR, MCSC




                                                                 ATTACHMENT 2




                                                     25
                                      UNCLASSIFTED


                  DODIG DRAFT RE PORT DATED 28 A G 2012
                       DODIG DZOll-DOOODC-0259.000

             " DELIVERIES AND PAYMENTS FORTH E DEFE SE
            ADVA 'CED GPS RECEIVERS t\lET CO 'TRACT TERMS,
                BUT J>ROJ>ERTY ACCOU 'TABILITY l EEDE D
                            li\Jl>ROYEME 'TS"

  US i\IAIUNE CORPS COMME1 TS TO Ttl£ DO DIG RECOMi\lli 'DATIONS

RECOMi\lENDA TlO S:
B. We recommend that t11e Assistant Secretary of the Anny (Acquisition. Technology. and
Logistics). in coordination with the Deputy Chief of StatT of the Army. G4/Logistics;
Assistant Secretary of the Navy {Research, Development and Acquisition), in coordination
with the Deputy Assistant Secretary of the Navy, C4USpace: Commander Air Force Materiel
Command, Logistics Readiness Division. in coordination with the Secretary of the Air Foree.
Installation and Logistics Management: and the Commandant oftl1e !\Iarine Corps Systems
Command, in coordination with the Deputy Commandant. Marine Corps Installations and
Logistics:

RECOMMEN DATION 8.1. : I . Record a ll Defense Advanced Global Positioning System
Receivers delivered to the U.S. Government in the appropriate Government accountable
property system of record.

USMC RESPO E: Concur. Per MarAdmin329/ J2, " Equipment Accountability and
Visibility: Marine Corps Enterprise Ground Equipment Manager". Marine Corps
Systems Conummd (MCSC) and Iarine Corps Logistics Comnumd (MCLC) are tasked
with ensuring accurate on-hand quantities are recorded in the accountable property
system of record (APSR) upon acceptance of material into the Marin.: Corps inventory.

A coordinated efTort between MCLC and MCSC to account for USMC DAGR assets is
currently in progress with expected completion in 2"d Qtr FY 13.

R ECO 'li\IENDATION B.2.a.:
2. Initiate complete inventory reconciliation to:
         a. Locate and inventory Defense Advanced G lobal Positioning System Receivers
unaccounted for, and

  SMC RESPONSE: Concur. A coordinated effort between l\ICLC and MCSC to
account for USMC DAGR assets is currentl y in progress with expected completion in 2"d
Qtr FY 13. 1\ ICLC will perfonn an unscheduled inventory of on-hand assets to verify
accuracy of APSR prior to 3 1 October 20 I 2.

Additional comments: ·n,e maj ority of OAGR assets arc fielded as SL3/embcdded in
other weapon system platfonns and w ill not be visible as stru1d-alonc items within the




                                      UNCLASSIFlED




                                                           26
                                     UNCLASSIFTED


current accountable property systems of record. Anticipate improved visibil ity of
embedded TAl\ ICNs once GCSS-MC is full y on-line in FY14.

RECOMi\IEN DATION 8.2.b.:
       b. Complete appropriate loss of property fonns if necessary.

 SMC RESPONSE: Concur.




                                     UNCLASSIFIED




                                                          27
U.S. Air Force, Space and Missile Systems Center, GPS
Directorate, Comments



                             DEPARTMENT OF THE AIR FORCE
                       HEADQUARTERS SPACE A ND MISSILE SYSTEMS CENTER (AFSPC)
                              LOS ANGELES AIR FORCE BASE, CALIFORNIA




                                                                                      09 Oct 12

       MEMORANDUM FOR DOD IG

       FROM: SMC/GPK
             483 N. Aviation Blvd
             El Segundo CA 90245-2808

       SUBJECT: Management Response to the DoD IG ';Deliveries and Payments for the
                Defense Advanced GPS Receivers Met Contract Terms, but Property
                Accountability Needed Improvements Audit,
                (Project No. D2011-DOOODC-0259.000)"


       1. In accordance with AFI 65-601, Aud it Reporting Procedures, SMC/GPS or SMC/CC
       is providing the following management comments to the subject audit.

       Recommendation C. We recommend that the Director of Contracts. U.S. Air Force,
       Space and Missile Systems Center, Global Positioning Systems Directorate, provide
       contracting personnel with training on when and how to use performance-based
       payments before awarding any additional contracts allowing performance-based
       payment financing.

       Management Comments: Concur. While we may take issue with some aspects of
       this report (e.g., the calculation of the ' unnecessary accounting processing fees" figure
       of $49,788 since there would have been some accounting processing fees required for
       the appropriate payments, and we're not sure how the auditors arrived at the number
       1,800 for the DCMA and DFAS accounting and reconciliation payments and related
       transactions), we concur with Recommendation C and training will be provided to
       contracting personnel no later than 31 October 2012 on when and how to use
       performance-based payments before awarding any additional contracts allowing
       performance-based payment financing .

       2. For questions. please contact the undersigned a• • • • • • •




                                                       TIMOTHYE.        K
                                                       Chief of Co tracts
                                                       Global Positioning Systems Directorate




                                     INTEGRITY, SERVICE, EX CELLENCE




                                                               28
